No.

,v-

IN THE SUPREME COURT OF THE UNITED STATES

HEATHER P. HOGROBROOKS HARRIS- PETITIONER
VS.
JIMMIE L. SMITH- RESPONDENTS
PROOF OF SERVICE

I Heather Hogrobrooks Harris, do swear or declare that on this date, August 31, 2020 as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the
above proceeding or that part's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Melanie M. Stewart
Heaton and Moore
44 N. Second St. suite 1200, Memphis, TN 38103
I declare under penalty of perjury that the foregoing is true and correct.

Executed on

V

